The Department of Justice Office of the Inspector General (OIG) announced today the issuance
of a report examining the Federal Bureau of Investigation's (FBI) progress in implementing the
recommendations contained in the OIG May 2006 report, “A Review of the FBI's Handling and
Oversight of FBI Asset Katrina Leung.” We found that, since that report, the FBI has
substantially revised the way it oversees confidential human sources.

The OIG’s May 2006 report described the FBI's handling and oversight of Katrina Leung, one of
the FBI's highest paid counterintelligence assets who allegedly also worked for the People's
Republic of China. Leung had a longtime intimate relationship with her FBI handler, Special
Agent James J. Smith. The OIG found that the FBI was aware of serious counterintelligence
concerns about Leung, but did little to follow up on the warning signals. As a result of these
findings, the OIG made 11 recommendations to address systemic issues in the FBI's asset
handling and vetting procedures that enabled Smith and Leung to escape detection for more
than 20 years.

The OIG found that since its initial investigation the FBI has made substantial changes in its
management of confidential human sources, including undertaking the Human Source Re-
Engineering Project in order to consistently coordinate the manner in which all human sources
are managed and validated. The FBI established an electronic record-keeping system and
database designed to facilitate more meaningful and objective analytic reviews of sources and
detailed supervisory reviews of source handling.

The OIG determined that as a result of these efforts, the FBI has fully implemented five of the
recommendations from our 2006 report, specifically that the FBI save asset file review records
indefinitely rather than just from one 90-day review to the next; require periodic background
reinvestigations for long-term assets; create annual ethics training; conduct counterintelligence
polygraph examinations; and prohibit blanket exceptions to asset handling rules. We therefore
consider these recommendations closed.

The OIG report issued today concluded that six recommendations from the original report are
resolved, but not closed. The first of these is the recommendation that the FBI continue its FBI
Headquarters managed asset validation review process and provide sufficient resources for this
function. In September 2013, FBI officials told the OIG that due to budgetary constraints and
other considerations, the FBI proposed a reorganization that will substantially change the
validation process that the OIG reviewed in its follow-up report. The FBI indicated that it
expects to conduct a pilot implementation of the reorganization soon. Because this is a
significant reorganization that has yet to be implemented, we cannot say whether the proposed
changes will adequately address our recommendation. The FBI has committed to updating the
OIG on this within six months.

The remaining recommendations that have not been fully implemented were creating a new
subsection in the asset file for red flags, derogatory reporting, anomalies, and analyses;
requiring alternate case agents to meet with assets on a frequent basis; limiting the time an
agent can handle an asset; requiring that agents record any documents passed and all matters
discussed with the asset; and requiring that supervisors responsible for assets signify that they
have reviewed the subsection on derogatory reporting.

Although the FBI has not fully implemented six of the OIG's recommendations, after reviewing a
draft of this report, the FBI stated that it concurred with the steps outlined in the report to close
the six remaining recommendations. The OIG will continue to monitor the FBI's progress in
implementing the remaining recommendations.

The full report contains information that the FBI considers to be classified and therefore could
not be publicly released. The OIG has provided copies of the full classified report, without
redactions, to the Department and to Congress. The OIG released to the public today an
unclassified Executive Summary of the report, which can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/s1310.pdf.
